No. ____________
In the

Supreme Court of the United States
SALVADOR VASQUEZ, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
Certificate of Service
I, Margaret A. Farrand, hereby certify that on September 27, 2021, a
copy of petitioner’s Motion for Leave to Proceed in Forma Pauperis and
Petition for Writ of Certiorari to the Court of Appeals for the Ninth Circuit
were mailed, postage prepaid, to the Solicitor General of the United States,
Department of Justice, Room 5614, 950 Pennsylvania Avenue, N.W.,
Washington, D.C., 20530-0001, counsel for the Respondent.

In addition, a copy of petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the Court of Appeals for the

Ninth Circuit was emailed to the Solicitor General at
SupremeCtBriefs@usdoj.gov.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: September 27, 2021

By: /s/ Margaret A. Farrand
MARGARET A. FARRAND*
Deputy Federal Public Defender
Counsel for Petitioner
*Counsel of Record

